One Logan Square
27th Floor
Philadelphia, PA 19103-6933
215.568.0300/facsimile

Robert A. Wiygul
Direct Dial: 215.496.7042
E-mail: rwiygul@hangley.com

April 14, 2021
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Southeastern Pennsylvania Transportation Authority v. Center for Investigative
Reporting, No. 20-1379

Dear Mr. Harris:
Respondent in the above-referenced matter writes to request a 60-day extension of
Respondent’s time to file a brief in opposition to the petition for writ of certiorari, from May 3,
2021, to July 2, 2021. The petition for a writ of certiorari was submitted on March 29, 2021, and
docketed on April 1, 2021.
Respondent seeks this extension in light of counsel’s competing personal and
professional obligations. First and foremost, the current public health emergency related to
COVID-19 has forced the closure of and/or significant restrictions on capacity at each of the
offices where Respondent’s counsel normally work. The public health emergency has also
forced closures of schools, camps, and child care facilities, which requires Respondent’s counsel
to care for minor children during this time. Meanwhile, in this context of reduced capacity,
counsel for Respondent remain committed to other upcoming filings.
Previously scheduled personal and professional commitments during the initial 30-day
response period, as well as new challenges resulting from the COVID-19 public health
emergency and resulting disruptions to professional and personal life, would make it difficult for
counsel to prepare the response in this case.
Petitioner through counsel has indicated it does not object to this request.

Scott S. Harris, Clerk
April 14, 2021
Page 2
Thank you for your attention to this matter.
Respectfully,

Robert A. Wiygul
RAW/jdb
cc: All Counsel of Record

